No.: 19-994
In the
SUPREME COURT of the UNITED STATES

JEFFREY LANCE HILL, SR., Petitioner,
v.
LEANDRA G. JOHNSON, GREGORY S. PARKER,
WILLIAM F. WILLIAMS, III, JENNIFER B.
SPRINGFIELD, JOEL F. FOREMAN, SUWANNEE
RIVER WATER MANAGEMENT DISTRICT,
COLUMBIA COUNTY, FLORIDA AND CITY of
LAKE CITY, FLORIDA, Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

PETITION FOR REHEARING

JEFFREY LANCE HILL, SR., Petitioner, pro se
908 SE Country Club Road
Lake City, Florida 32025
Phone: 386-623-9000

1

TABLE OF CONTENTS

page

Petition for Rehearing and Preliminary

1

Intervening Circumstances...................

2

I. February 4, 2020 Taking by Flooding —

2

II. March 3, 2020 Order Hill pay $9,169.57

4

III. State Court convened with counterfeit judge —-6
IV. Substantial Grounds not yet argued

9

Conclusion...............................................

13

TABLE OF AUTHORITIES
Arkansas Game and Fish Comm. v. United States,
568 U.S. 23 (2012)
3, 5
Armstrong v. United States, 364 U.S. 40 (1960)-----4
Heck v. Humphrey, 512 U.S. 477 (1994)

3

Horne v. Dep’t. of Agriculture, 569 U.S. 513(2013)—6
Knick v. Township of Scott, 588 U.S._(2019)- -3,5,6
Monterey v. Del Monte Dunes at Monterey, Ltd.,526 U.S. 687 (1999).............................................
6
Patsy v. Board of Regents of Fla., 457 U.S. 496
(1982)....................................................................

3

Payret v. Adams, 500 So. 2d 136 (Fla 1986).....

8

11

AUTHORITIES continued

page

Pumpelly v. Green Bay Co., 13 Wall. 166 (1871)

3

Rooker-Feldman

9

Stop the Beach Renourishment v. Fla. Dep’t. of
Environmental Protection, 560 U.S. 702(2002) -

5

United States v. Causby, 328 U.S. 256 (1946)—

3

United States v. Cress, 243 U.S. 316 (1917).....

3,5

UNITED STATES CONSTITUTION
Amendment V

3,4,5,6,7,10

Amendment VII

11

Amendment VIII

5

Amendment XIV

5, 8

UNITED STATES CODE
Title 42 U.S.C. section 1983

3

FLORIDA STATUTES
Florida Statute 26.012

7

Florida Statute 26.57

7

Florida Statute 47.011

7

Florida Statute 73.091

5

Florida Statute 73.092

5

Ill

page
Florida Statute 775.082, 083, 084

11

Florida Statute 817.535

11

1.
PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44, Petitioner
Jeffrey Lance Hill, Sr. (Hill) respectfully petitions
this Court to reconsider its April 6, 2020 decision
denying Hill’s Petition for Writ of Certiorari. This
Petition is filed within 25 days of the denial.

PRELIMINARY STATEMENT
In this Petition for Rehearing, documents in Hill’s
Petition for Writ of Certiorari will be referred to as
Pet. App.
.. Exhibits presented in this Petition
for Rehearing will be referred to as RH App.

2

INTERVENING CIRCUMSTANCES
I. RESPONDENT SUWANNEE RIVER WATER
MANAGEMENT DISTRICT (THE AGENCY)
DRAINS POND ONTO HILL’S LAND AGAIN
a. The pond referred to in this litigation lies in
Section 3. Township 4 South, Range 17 East,
Columbia County, Florida. The Agency claims
ownership of 75 acres more or less, in and around
the subject pond by and through a state court
judgment; Pet. App. 1-1. Hill and His wife, Linda,
own real property in section 3 (15 acres more or less)
Tax Parcel No.: RO7592-029, RH App. 1; and ALSO
in section 4 (115 acres more or less) that is not
claimed by the agency; Tax Parcel No.: R07594-000;
see attached ad valorem tax bill; RH App. 2.
See
attached sketch for clarification of the location of the
real properties; RH App. 3.
b. From ~June, 2019 through February 3, 2020, the
pond was holding water with its valve closed.
c. On February 4, 2020, employees of Suwannee
River Water Management District (the Agency),
including Tara Rodgers and Tom Mirti, along with
other unnamed employees, opened the valve in the
pond allowing more than 50 million gallons of
surface water to flood Hill’s land in Section 4,
Township 4 South, Range 17 East, Columbia County,
Florida; Tax Parcel No.: R07594-000; RH App. 2.
This Court holds; “a property owner acquires an
irrevocable right to just compensation

3

immediately upon a taking;” page 10, Knick v.
Township of Scott, 588 U.S.
.(2019). Further in
Knick; “The state litigation requirement of
Williamson County is over-ruled”; page 23. Also in
Knick; “The Civil Rights Act of 1871, after all,
guarantees, “ a federal forum for claims of
unconstitutional treatment at the hands of state
officials’” and the settled rule is that “ exhaustion of
state remedies ‘is not a prerequisite to an action
under [42 U.S.C.] section 1983.”’ Heck v. Humphrey,
512 U.S. 477, 480 (1994) (quoting Patsy v. Board of
Regents of Fla. , 457 U.S. 496, 501 (1982); page 2. “
the Fifth
Amendment right to compensation
automatically arises at the time the government
takes property without paying for it;” pg. 9 {Knick).
In Arkansas Game and Fish Comm. v. U. S., 568
U.S. 23 (2012), this Court held; “ this court has ruled
that government induced flooding, Pumpelly v. Green
Bay Co., 13 Wall. 166, and seasonal recurring
flooding, Cress, 243 U.S. at 328, can constitute
takings. The Court has also ruled that takings
temporary in duration can be compensable. E.g.
United States v. Causby, 328 U.S. 256.” The agency
admits an inverse condemnation taking; Pet. App. D10, pled for and received summary judgment on
February 10, 2016, in state court case no.: 11-340CA,
Pet. App. D-10; granted on the grounds of quasi­
judicial immunity; their immunity was overturned
in the Fla. 1st Dist. Court of Appeal; Pet. A-22. The
property owner’s right to compensation is
irrevocable; page 10, Knick.

4
d. The subject pond is a farm irrigation pond built by
the Hill family in year 1966; Pet. App. D-62. The
agency claims ownership and control of the pond.
This is the only farm pond the agency claims. The
agency lacks the ability, authority, knowledge,
experience, and staff to own and operate a farm
pond. The property takings cause is stated in
Paragraph 25 of Hill’s complaint in the U.S. District
Court (no.; 3:17-cv-1342, Doc. 1). If the agency needs
property to store water on, they must pay for it in
accordance with this court’s rulings and the Takings
Clause of the United States Constitution.
e. It is unlawful and unfair for Hill to continue to
pay taxes on real property used by the government;
Armstrong v. United States, 364 U.S. 40 (1960). Hill
filed a motion in the U.S. District Court to stay ad
valorem taxes on the subject property, that motion
was denied by the District court on May 18, 2018;
Pet. App. A-16. This Court is Hill’s only chance for
proper relief and prevention of grave injustice since
the District Court dismisses and the 11th Circuit
affirms. Hill’s Petition for Writ of Certiorari should
be reconsidered and granted.
II. THE UNITED STATES DISTRICT COURT
AWARDS THE AGENCY $9,169.87
a. On March 3, 2020, while Hill’s Petition for Writ of
Certiorari was pending in this Court, the U.S.
District Court (case no.: 3:17-cv-1342, Doc. 42)
awarded the agency’s attorneys $9,169.87 for fees
and costs. This action compounds the previous

5
violation of Amendment VIII of the U.S. Constitution
and also adds to manifest injustice as real property
has been taken by government without payment and
Hill is now expected to pay the attorneys who
facilitated the taking, contrary to Amendment V and
XIV of the U.S. Constitution and this Court’s
holdings in Knick v. Township of Scott, 588 U.S.___
(2019), Arkansas Game and Fish Comm. v. United
States, 568 U.S. 23 (2012), United States v. Cress,243
U.S. 316 (1917), and Stop the Beach Renourishment
v. Fla. DEP, 560 U.S. 702 (2002). An order for Hill to
pay the agency’s attorneys is also in conflict with
Florida’s Eminent Domain laws. Florida Statute
73.091 (1) provides, in pertinent part, “The
petitioner [state, county or municipality] shall pay
attorney’s fees as provided in s. 73.092 as well as all
reasonable costs incurred in the defense of the
[eminent domain] proceedings in the circuit court”.
Under the plan laid out by the lower courts, Hill not
only loses His land and three generations of hard
work building and operating a family farm; but pays
the attorneys for the government. Hill cannot afford
His own attorney and cannot afford attorneys for the
Agency of the state. Without relief from this court,
Defendants/Respondents County, Foreman and City
have taken real property without compensation;
property which was not involved in and separate
from the agency’s claims. The taking in tax parcel
no.: RO7592-029 had nothing to do with the agency’s
regulatory plan to force Hill’s farm to obtain a
permit; see RH App. 3.

6

b. In Knick, Justice Thomas, concurring, page 2,
states; “when the government repudiates [its] duty”
to pay just compensation, its actions “ are not only
unconstitutional” but may be “tortious as well.”
Monterey v. Del Monte Dunes at Monterey, Ltd., 526
U.S. 687, 717 (1999). Respondents County and City
undeniably trespassed to install their pipes in Tax
Parcel RO7592-029; land belonging to Hill and His
wife; RH App. 1.
c. In Knick, Justice Kagan, dissenting, page 3,
states; “a Takings Clause violation has two
necessary elements. First, the government must take
the property. Second, it must deny the property
owner just compensation.” see Horne v. Department
of Agriculture, 569 U.S. 513 (2013). Respondents
City and County have done both.
III. THE STATE COURT GRANTS HEARING
FOR THE AGENCY TO CHARGE HILL for fees
WHEN THE PERSON PRESIDING IS NOT A
CIRCUIT COURT JUDGE IN COLUMBIA
COUNTY, FLORIDA
a. The Agency’s attorneys have furnished NOTICE
OF HEARING to Hill for hearing March 30, 2020,
May 14, 2020 and July 24, 2020 on the Agency’s
Motion for fees and costs in case no. 11-340CA; RH
App. 7. The agency is requesting that Hill be ordered
to pay more than $150,000.00 in fees and costs in the
state court.

7

b. The person presiding is Defendant/Respondent
William F. Williams, III, (Williams). Williams is a
County judge in Suwannee County, Florida. All of
the real property in this dispute lies in Columbia
County, Florida. Florida Statute 47.011 provides;
“Actions shall be brought only in the county where
the defendant resides, where the cause of action
accrued, or where the property in litigation is
located. This section shall not apply to
nonresidents”; Florida Statute 26.012 (2) (g)
provides; “They [Circuit Courts] shall have exclusive
jurisdiction in all actions involving the title and
boundaries of real property”. Florida Statute 26.57
provides, in relevant part; “A County Court judge
may be designated on a temporary basis to provide
over circuit court cases by the Chief Justice of the
Supreme Court upon recommendation of the chief
judge of the circuit”. Williams has not been
recommended to or designated by the Florida
Supreme Court. Lack of Williams’ authority is stated
in paragraph 34 of Hill’s complaint (3:17-cv-1342).
Columbia County has five resident circuit court
judges. Four of these judges refused to preside
because they knew the original action is a violation
of the Takings Clause. Respondent Leandra G.
Johnson assigned the original state court case (06203CA) to Respondent Gregory S. Parker (Parker)
who resides in Taylor County, Florida. Parker
assigned Williams to preside in all cases involving
Hill, the assignment is for an indefinite period of
time; RH App. 4. Under Florida’s tier court system

8

and under Florida law, Williams has no authority to
preside in Columbia County Circuit Court.
c. Respondent Parker assigned case no.: 11-340 CA
to Williams in April 25, 2016, four years ago. The
assignment bears no time limitation; RH App. 4. The
Florida Supreme Court held in Payret v. Adams, 500
So. 2d 136 (Fla 1986); “ a County judge cannot be
indefinitely assigned circuit court duties”. Under
Florida law and the Florida Supreme Court’s
holdings, Williams has no authority to hear circuit
court cases in Columbia County, Florida. However,
since April 25, 2016, Williams has favored the
agency in his orders 56 times. Hill has filed notices,
motions and petitions in the state circuit court and
the Florida Supreme Court challenging Williams’
lack of authority, Hill had no success and Williams
continues to grant relief to the agency. In appeal no.:
ID18-0048, Fla 1st District Court of Appeal, Hill
specifically asked for clarification as to Williams’
status as a Florida circuit judge and that court
denied clarification; Pet. App. L-3. Williams’
presiding in Columbia County Florida constitutes
denial of due process and denies equal protection
under the laws as guaranteed by Section 1,
Amendment XIV of the U.S. Constitution. Hill has
not obtained relief in state or Federal court and
prays this Honorable Court use its Supreme Power
to give relief to Petitioner Jeffrey Lance Hill, Sr..

9
IV. SUBSTANTIAL GROUNDS NOT YET
ARGUED
a. The Eleventh Circuit’s opinion on September 20,
2019 focuses on two issues: 1) The Rooker- Feldman
Doctrine bars Hill’s complaint in the U.S. District
court and; 2) Hill’s complaint makes clear that He
sought to have the district court review the Florida
judgments. These holdings pertain only to
Defendants/Respondents Suwannee River Water
Management District and Leandra G. Johnson. The
other six Defendants/ Respondents took actions
subsequently for which their culpability does not
rely on review of the underlying state court
judgments.
Defendants City of Lake City, Florida (City) and
Columbia County, Florida (County) are also named
in the district court complaint. Their actions are
stated in the complaint in paragraphs 30, 33 and 35,
they certainly should not be allowed to take and use
real property from Hill without paying for it, with or
without review of the state court’s judgments. The
land taken by City and County is far separated from
the land claimed by the agency; see RH App. 3. City
and county are separate parties. Defendant
Williams’ unlawful actions impersonating a state
circuit court judge do not rely on review of the
underlying state court judgments. Defendants
Jennifer B. Springfield (Springfield) and Joel F.
Foreman (Foreman) are separate parties and their
roles in the unlawful actions are not dependent on
review of the state court judgments. Springfield’s

10
actions are stated in paragraph 26 and Foreman’s
actions are stated in paragraph 32 of the complaint.
This Court should reconsider, vacate and remand
due to these substantial omissions involving the
Defendants/Respondents other than the agency
whose culpability does not rely on review of the state
court judgments. The Eleventh Circuit’s opinion is
clearly in error as it supports government taking
property without paying for it, contrary to this
Court’s steadfast holdings concerning private
property and Amendment V rights. The lower
court’s opinion creates a mistaken and unworkable
precedent when it allows City and County an
uncompensated occupation of Hill’s real property.
For clarity, stability, fairness and consistency in
federal takings litigation, Hill prays for
reconsideration to this Court.
b. The U.S. District Court dismissed Hill’s complaint
sua sponte stating the complaint failed to state a
claim for which that court could grant relief.
Certainly, a more carefully drafted complaint can
state a claim for which relief can be granted in the
U.S. District court. The U.S. District Court did not
specify the deficiencies in the complaint. The District
Court also cites previous decisions by the District
Court on February 29th, 2016 as reason for dismissal.
Defendants City, County, Williams and Foreman
took actions to take Hill’s property AFTER April 25,
2016, as alleged in paragraphs 28 through 34 of
Hill’s complaint (no.: 3:17-cv-1342). This real
property taking is not hypothetical or speculative,

11
the Defendants cannot and have not denied taking
the land without paying for it. Amendment VII
guarantees trial by jury to determine the facts.
c. Defendant/Respondent Foreman violated Florida
Statute 817.535 to facilitate taking of real property
in the Southeast quarter of the Northwest quarter of
section 3. The 75 acres the agency claims lies in the
Northwest portion of the Northwest quarter of
section 3; see RH App. 3. Foreman filed a false
document on June 14, 2017; see RH App. 5. The
document states that Hill’s son, Jeffrey L. Hill, Jr.,
was served a summons, civil cover sheet and Petition
for Appointment of Receiver with exhibits on June
12, 2017; that statement is false; see RH App. 5. In
fact, Hill, Jr. was not served until April, 2019.
Florida Statute 817.535 (2)(a) provides; “ A person
who files or directs a filer to file, with the intent to
defraud or harass another, any instrument
containing a materially false, fictitious, or
fraudulent statement or representation that
purports to affect an owner’s interest in the property
described in the instrument commits a felony of the
third degree, punishable as provided in s. 775.082, s.
775.083, or s. 775.084.” Hill reported Foreman’s
action to our State Attorney (Fla 3rd Judicial circuit)
and he refused to prosecute; see RH App. 6. Also,
about 3 months ago, our state attorney resigned
abruptly under investigation and a federal grand
jury was convened. Hill also reported Foreman’s
actions to the Florida Bar and they responded that a
lawyer is allowed to do such.

12
d. NONDISCLOSED CONFLICTS of
INTERESTS
Defendant/Respondent
Leandra
G.
Johnson
(Johnson) was appointed to serve as a circuit court
judge in Florida’s 3rd judicial circuit in 2006 by then
Florida governor Jeb Bush. Attorney Thomas W.
Brown (Brown) was general counsel for the agency
from 1981 - 2010. Brown was chairman of the
judicial committee that recommended Johnson be
appointed by the governor. These facts were not
disclosed by Johnson or Brown in case no.: 06203CA.
Marcia P. Tjoflat was paid cash by the agency as an
expert witness in state court case no.: 06-203CA; Pet.
App. D-31. Marcia P. Tjoflat is the wife of 11th
Circuit Judge Gerald B. Tjoflat. These facts were not
disclosed by Judge Tjoflat in appeal no.: 18-12215AA.
Without review granted by this Honorable Court, the
11th Circuit’s opinion gives a large portion of private
property in the State of Florida to the State, City of
Lake City and Columbia County without
compensation.
Only this Court can overrule the eleventh circuit
court.

13
CONCLUSION
This Petition for Rehearing should be granted.
Respectfully submitted on this 36

2020 by;

jJ

day of April,

X. Mj/Jn.____

Jeffrey Lance Hill, Petitioner, pro se
908 SE Country Club Road
Lake City, Florida 32025
Phone: 386-623-9000

CERTIFICATE OF UNREPRESENTED PARTY
I hereby certify that this Petition for Rehearing is
restricted to the grounds specified in Supreme Court
Rule 44, is presented in good faith, in the interest of
justice and not for delay.
Executed on this 36 ^ day of April, 2020.
., Jeffrey Lance Hill, Sr.,
908 SE Country Club Road, Lake City, Florida
32025.
Phone; 386-623-9000

•l

Additional material
from this filing'is
available in the
Clerk's Office
>,

;

